                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A12070049                                                                     Page 1 of 1



                We assessed an allegation of potential research misconduct in work published by a
        graduate student. 1' 2 The complaint alleges that the published work was performed under
        direction of and in collaboration with a mentor not named in the paper; that the work was
        fabricated because the experimental data included was incomplete and inaccurate; and that
        another researcher 3 and the graduate student published a second paper4 including research results
        from the collaborative effort again not acknowledged. Although the researcher is a coPI on a
        recent (and now closed) NSF award, 5 the graduate student has not been supported by NSF funds,
        the neither publication acknowledges NSF support, and neither publication is cited as research
        supported by the NSF award. Without connection to NSF -supported research, this office has no
        jurisdiction in this matter. The complaint also relays concerns about intellectual property
        disclosures and claims at a university. Lacking jurisdiction, we did not investigate these
        concerns.

                   Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
